No. 21In the Supreme Court of the United States

Angela W. DeBose, PETITIONER
V:

University of South Florida Board of Trustees, Respondent.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

filed"
ApR 20 2021

Si
ANGELA W. DEBOSE
Petitioner F*ro Se
1107 West Kirby Street
Tampa, FL 33604
(813) 230-3023
awdebose@aol.com

RECEIVED
APR 2 8 2021
•FFICE OF THE CLERK
SUPREME COURT. U.S.

1.

QUESTIONS PRESENTED
1. Whether a Rule 60(d) Independent Action to Attack a
Final Judgment is a continuation or re-litigation of the
prior case, barred by the doctrine of res judicata.
2. Whether a blameless party must show that she
has been denied a full and fair opportunity to
present her case by “clear and convincing
evidence,” as the Third, Fifth, Seventh, Eighth,
and Eleventh Circuits; or show “substantial
interference” in the presentation of her Case, as
the Ninth and Tenth Circuits have held; or does
the burden on this issue shift under certain
circumstances to the party opposing a Rule
60(b)(3)/60(d)(3) motion; or must the movant
show “only that species of fraud which does or
attempts to, defile the court itself, or is a fraud
perpetrated by officers of the court so that the
judicial machinery cannot perform in the usual
manner its impartial task of adjudging cases that
are presented for adjudication.” Travelers Indent.
Co. v. Gore, 761 F.2d 1549, 1551 (11th Cir. 1985).

ii.
PARTIES TO THE PROCEEDING
Petitioner Angela DeBose was the plaintiff-appellant below.
Respondent University of South Florida Board of Trustees (“USFBOT”) was
the defendant-appellee below.
Greenberg Traurig, P.A. (“Greenberg”) and USFBOT were defendants below in
Case No. 8:19-cv-01132-JSM-AEP and were served process but did not file notices of
appearance. Following Dismissal Without Prejudice, the district court ordered
Petitioner to file a Rule 60(b) motion in the case requesting Certiorari review. The
District Court rejected Petitioner’s pleadings to join Greenberg as a party. Therefore,
Greenberg is not a party to the instant petition.
Ellucian, L.P. (“Ellucian”) was a defendant-appellee below. However, plaintiff
and Ellucian jointly moved the Eleventh Circuit Court for a stipulation of dismissal
against Ellucian as a party, which was granted. Therefore, Ellucian is not a party to
the instant petition.

111.

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

INTERESTED PARTIES

11

TABLE OF CONTENTS

in

APPENDIX

1V-V

TABLE OF CITATIONS

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

1-2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

9

I.

Issue 1 - The Application of the Doctrine of Res
Judicata to a Rule 60(d)(3) Independent Action to
Attack a Prior Judgment or Rule 60(b) Motion for
Relief from Judgment...............................................

II. Issue 2 - The Conflicts Among the Circuits on the
standard of the burden of proof required and the
degree of “bad faith” that must be shown for a Rule
60(b)(3) motion or Rule 60(d) Independent Action....

CONCLUSION

9

12

19

IV.

APPENDIX
Unpublished Judgment affirming District Court
U.S. Court of Appeals
for the Eleventh Circuit
entered January 21, 2021...........................

A-l

Published Judgment affirming District Court
U.S. Court of Appeals
for the Eleventh Circuit
entered January 21, 2021......................

A-2

Order Denying Petition for Rehearing /
Rehearing En Banc
U.S. Court of Appeals
for the Eleventh Circuit
entered March 2, 2021.................

A-3

Notice of Appeal filed July 21, 2020

A-4

Unpublished Order and Opinion Denying Motions
for Relief from Judgment and Evidentiary Hearing
U.S. District Court
Of the Middle District of Florida
entered June 23, 2020.....................................

A-5

Published Order and Opinion Denying Motions
for Relief from Judgment and Evidentiary Hearing
U.S. District Court
Of the Middle District of Florida
entered June 23, 2020.....................................

A-6

Unpublished Endorsed Order Denying Motion for
Reassignment of New Magistrate or alternatively
Recusal of Assigned Magistrate
U.S. District Court
Of the Middle District of Florida
entered June 24, 2020..................................

A-7

V.

Unpublished Order Motion for Reconsideration
U.S. District Court
Of the Middle District of Florida
entered July 10, 2020................................

A-8

Published Order Motion for Reconsideration
U.S. District Court
Of the Middle District of Florida
entered July 10, 2020...........................

A-9

Unpublished Order Dismissing Independent Action
Without Prejudice for refiling in Original Case
U.S. District Court
Of the Middle District of Florida
entered May 16, 2019.......................................

A-10

New Evidence filed in Support
of Motion for Relief filed May 12, 2020.......................
Affidavit of Marquisha Wilson..........................
Affidavit of Zayna James..................................
Complaint Targeting Workers Hired /
Serving Under DeBose......................................
Extended Contract of Dr. Ralph Wilcox...........
Extended Contract of Dr. Paul Dosal...............
Affidavit Delonjie Tyson....................................
Testimony of Ralph Wilcox contradicting his
testimony at trial that he did not debrief with
Ellucian’s Andrea Diamond.............................
Deposition of Delonjie Tyson............................
Motion Hearing Transcript (2/8/17).................
Miscellaneous Hearing (8/14/18)......................
Unpublished Judgment affirming District Court Order
Overturning the Jury Verdict and Denying New Trial
And Granting JMOL and Conditional Trial
U.S. Court of Appeals
for the Eleventh Circuit
entered April 27, 2020.......................................

A-ll
pg. 44a
pg. 47a
pg.
pg.
pg.
pg.

49a
62a
64a
65a

pg.
pg.
pg.
pg.

67a
71a
96a
99a

A-12

VI.

TABLE OF CITATIONS
CASES
Anderson v. Cryovac, Inc.,
862 F.2d 910 (1st Cir. 1998)

PAGE

3,17

Bost v. Fed. Express Corp.,
372 F.3d 1233 (11th Cir. 2004)

11

Commil USA, LLC v. Cisco Systems Inc.,
135 S. Ct. 1920 (2015)..........................

14

Cox Nuclear Pharmacy, Inc. v. CTI, Inc.
478 F.3d 1303 (11th Cir.2007)...'.......

13

Hazel Atlas Co. v. Hartford Empire Co.
322 U.S. 238 (1944)............................

15

Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238 (1944).........................................

19

Hope 7 Monroe St. L.P. v. Riaso, LLC,
743 F.3d 867 (D.C. Cir. 2014)........

10

Info-Hold, Inc. v. Sound Merchandising, Inc.,
538 F.3d 448 (6th Cir. 2008)........................

18

Jones v. Aero/Chem Corp.,

921 F.2d 875 (9th Cir. 1990)

16

Jordan u. Paccar, Inc.,
No. 95-3478, 1996 U.S. App. LEXIS 25358, 1996
WL 528950 (6th Cir. Sept. 17, 1996)......................

18

Justice v. United States,
6 F.3d 1474 (11th Cir. 1993)

11

Lonsdorf v. Seefeldt,
47 F.3d 893 (7th Cir. 1995)

14,15

VII.

Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133, 151 (2000)..............................

6

Rozier v. Ford Motor Co.,
573 F.2d 1332 (5th Cir.1978)

19

Seaboldt v. Pennsylvania RR. Co.,
290 F.2d 296 (3d Cir.1961).....

19

State St. Bank & Trust Co. v. Inversiones Errazuriz Limitada,
374 F.3d 158 (2d Cir.2004).........................................................

13

Summer v. Howard Univ.,
374 F.3d 1188 (D.C. Cir. 2004)

17

Toledo Scale Co. v. Computing Scale Co.
261 U.S. 399 (1923)..............................

14

United States v. Beggerly,
524 U.S. 38 (1998).....

19

United States v. One (1) Douglas A-26B Aircraft,
662 F.2d 1372 (11th Cir.1981)...........................

18

Venson v. Altamirano,
749 F.3d 641 (7th Cir.2014)

13

Woodworker’s Supply, Inc. v. Principal Mutual Life Insurance Co.,
170 F.3d 985 (10th Cir. 1999)...........................................................

16

Zurich N. Am. v. Matrix Serv. Inc.,
426 F.3d 1281 (10th Cir. 2005).

STATUTES AND RULES

13,16,19

PAGE

Federal Rule of Civil Procedure 15

4,11

Federal Rule of Civil Procedure 59

2,4,16

Federal Rule of Civil Procedure 60

passim

PETITION FOR A WRIT OF CERTIORARI
Angela W. DeBose petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for the
Eleventh Circuit.
OPINIONS BELOW
The unpublished opinion of the court of appeals is in the
Appendix (App. A-l, la-lOa) and the published opinion (App. A-2
11a-14a). The court of appeals order denying petitions for
rehearing and rehearing en banc is (App. A-3 15a). The
unpublished order of the district court denying Petitioner’s
Motion for Relief from Judgment and Independent Action is (App.
A-5 19a-29a); the published order is (A-6 30a-33a). The district
court’s endorsed Order denying as moot Petitioner’s Motion for
Reassignment or Recusal is (A-7 34a). The district court’s
unpublished
order
denying
Petitioner’s
Motion
for
Reconsideration is (A-8 35a-39a); the published order is (A-9 40a41a). The order of dismissing Without Prejudice of Petitioner’s
Independent Action as filed in a separate district court for refiling
in the original action as a Rule 60(b)(3) motion is (A-10 42a-43a).
STATEMENT OF JURISDICTION
Jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
The decision of the court of appeals was entered on January 21,
2021. The court of appeals denied Petitioner’s petition for
rehearing and petition for rehearing en banc on March 2, 2021.
This petition is timely filed pursuant to Supreme Court Rule 13.1.
Jurisdiction was proper in the District Court pursuant to 28
U.S.C. § 1331, and jurisdiction in the appellate court was proper
pursuant to 28 U.S.C. §§ 1291 and 1294(1).
STATUTORY PROVISION AT ISSUE
The relevant portion of Federal Rule of Civil Procedure Rule
60 provides:

RULE 60. RELIEF FROM A
JUDGMENT OR ORDER
(b) Grounds for Relief from a Final Judgment, Order, or
Proceeding. On motion and just terms, the court may relieve a

2

party or its legal representative from a final judgment, order,
or proceeding for the following reasons:
(1) mistake, inadvertence, surprise,, or excusable
neglect;
(2) newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to
move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by an
opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released or
discharged; it is based on an earlier judgment that
has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be made
within a reasonable time—and for reasons (1), (2),
and (3) no more than a year after the entry of the
judgment or order or the date of the proceeding.
(2) Effect on Finality. The motion does not affect the
judgment’s finality or suspend its operation.
(d) Other Powers to Grant Relief. This rule does not limit
a court’s power to:
(1) entertain an independent action to relieve a
party from a judgment, order, or proceeding;
(2) grant relief under 28 U.S.C. §1655 to a defendant
who was not personally notified of the action; or
(3) set aside a judgment for fraud on the court.

3

STATEMENT OF THE CASE AND FACTS
1. The Case
On May 19, 2019, Petitioner, Angela DeBose (“Ms. DeBose”)
filed a Complaint and Rule 60(d) Independent Action, based on
new evidence and fraud by USFBOT, Greenberg Traurig, P.A.
(“Greenberg”), and their legal representatives. The case style,
Angela DeBose v. University of South Florida Board of Trustees
and Greenberg Traurig, P.A.1, was filed in the Middle District
Court of Florida under Case No. 8:19-cv-01132-JSM-AEP.
Federal Rule of Civil Procedure 60(b) “allows six avenues through
which the court may vacate a judgment. Rule 60(b)(3) provides
relief from judgment for fraud, misrepresentation, or misconduct
by an opposing party. Petitioner sought relief on the basis of new
evidence that USFBOT, as a party, and its counsel committed
intrinsic and extrinsic fraud. USFBOT’s counsel presented false
and misleading, information on an issue to be tried (i.e.
Petitioner’s contract claims) that USFBOT stopped using written
employment contracts in 2005, thus making it appear a factual
impossibility that Ms. DeBose was under any employment
contract at the time of her termination, when in fact she was
under contract and that Ms. DeBose’s pay during her separation
would have fulfilled any obligation it had, if such contracts
existed. Additionally, USFBOT’s and its counsel’s conduct
prevented Petitioner from trying the issue (i.e. Ms. DeBose’s
contract claims) because of the ordered destruction of Petitioner’s
personnel files containing her copies of her employment contracts
and their concealment that the contracts once existed.
On May 16, 2019, the court issued an Order, (A-10, pg. 42a43a), dismissing the case without prejudice, directing the Clerk of
the Court to close the case as “moot,” and terminating all pending
motions. The referring court directed Petitioner in an order to
file the action as a Rule 60(b)(3) motion in the original subject
matter case, subsequently renumbered Case No. 8:15-cv-02787VMC-AEP.
On May 12, 2020, Petitioner refiled a Motion for Relief and
Independent Action in originating Case No. 8:15-cv-02787-VMCAEP. Petitioner incorporated the docket and filings of Case No.
8:19-cv-01132-JSM-AEP into her refiled Motion to preserve the
filing itself, the filing date, and her objections and challenges filed
to the court’s perceived committed errors. On June 23, 2020, the
1 The district court refused to issue the summons to serve process on Greenberg Traurig, P.A. .

4

District Court denied the Motion for Relief from Judgment and
Independent Action, (A-5, pgs. 19a-29a), and motions for other
miscellaneous relief. The District Court treated the Petitioner’s
refiled 60(b)(3) motion as untimely, disregarding the referring
court’s dismissal order requiring Petitioner to refile a Rule
60(b)(3) motion, the legal doctrine of equitable tolling, and the
“relates back” principle under Rule 15. The new District Court
Judge claimed “exhaustion” from relitigating old matters, failing
to review the Motion as one for relief under the proper standard.
On June 26, 2020, Petitioner filed a motion for reconsideration,
pursuant to Rule 59(e), to correct clear legal error, and/or Rule
60(b)(1), on the grounds of mistake, surprise, and to prevent
manifest injustice. The District Court denied the motion, stating
“DeBose has not pointed to any new evidence, arguably attached
to the independent action, in support of her Motion,” (A-8, pg. 38a).
Notably, Petitioner’s new evidence was attached to her
Independent Action in Case No. 8:19-cv-01132-JSM-AEP, which
was both refiled attached to the Motion, [ECF Doc. 588,
attachment #s 1-7] and incorporated, [ECF Doc. 591], in
accordance with Rule 60(b)(2).
On July 22, 2020, in Case No. 8:19-cv-01132-JSM-AEP,
Petitioner filed a Motion for Certification of the Order Dismissing
the Independent Action Without Prejudice, as a Final and
Appealable interlocutory order. On July 24, 2020, the referring
court denied the motion for certification, stating as grounds that
it did not consider the merits of DeBose’s Rule 60(b) motion and
dismissed her action without prejudice to file the motion in
“DeBose T, [ECF Doc. 12, Case No. 8:19-cv-01132-JSM-AEP].
2. The Facts
Petitioner filed the new evidence referenced below and moved for an
Evidentiary Hearing, denied:
A. New Evidence that USFBOT as a Party and USFBOT’s
Counsel Willfully Misrepresented and Put on False Evidence
About the Destruction of Petitioner’s Personnel Files.
Petitioner sued the University of South Florida Board of
Trustees (“USFBOT”) for Title VII violations and related claims.
USFBOT was on notice to preserve Ms. DeBose’s evidence for her
anticipated case in chief but nevertheless destroyed Petitioner’s

5

files.2 Denying that any destruction of Ms. DeBose’s documents
occurred, USFBOT’s counsel subsequently admitted to the
destruction, after a period of 15 months. USFBOT’s counsel
conceded that USFBOT used a third-party shredding company to
destroy Ms. DeBose’s documents. USFBOT’s counsel identified a
later timeline for the destruction and argued the “first-time”
destruction was ordinary, and not retaliatory or related to Ms.
DeBose’s protected activity. The reviewing magistrate stipulated
for the record that (1) there was a duty to preserve, (2) the
defendant (USFBOT) was on notice, and (3) there was a
destruction of documents that may have been relevant to the
litigation. (Appendix A-ll, pgs. 96a-98a; 99a-104a). The
magistrate declined to find “bad faith” but stated it would be
significant if it was shown that Ms. Lois Palmer (“Ms. Palmer”),
the employee that USFBOT’s counsel identified as ordering the
destruction of Ms. DeBose’s files, could not have done so,
(Appendix A-ll, pg. 103a), as another witness, Ms. Delonjie Tyson
(“Ms. Tyson”) alleged, (Appendix A-ll, Tyson’s Affidavit pgs. 65a66a; Tyson’s Deposition pgs. 71a-95a).
New Evidence: Petitioner obtained new evidence from two
new witnesses who testified that the destruction had already
occurred before Ms. Palmer was hired, (Appendix A-ll pgs. 44a48a). Additionally, the new evidence showed that the order to put
Ms. DeBose’s files in the shredding bins for destruction was given
by senior leaders, Drs. Paul Dosal (“Dr. Dosal”) and Ralph Wilcox
(“Dr. Wilcox”), against whom Petitioner filed EEOC race
discrimination and retaliation charges, (See A-ll pg. 44a-46a).
The new and existing evidence filed by Petitioner overwhelmingly
showed that USFBOT, as a party, and its legal counsel willfully
put on false evidence to deflect attention to Ms. Palmer and away
from Drs. Dosal and Wilcox. USFBOT’s counsel argued that Ms.
Palmer was negligent or grossly negligent to detract from Dr.
Dosal’s and Dr. Wilcox’s retaliatory motive. The new evidence is
result-changing because if USFBOT’s counsel had not made false
misrepresentations about the destruction (i.e. the timing, who
ordered it, that it was not routine, and that employees were not
notified in advance), the District Court may have been inclined to
give an adverse inference jury instruction that would have
sustained the unanimous jury verdict in favor of Ms. DeBose. The
verdict would have also been sustained against USFBOT’s post­
verdict JMOL. The denials and false evidence put on by
USFBOT’s counsel concerning the destruction evinces that
2 Notice was triggered by a formal communication and actual litigation in Federal District Court for
injunctive relief and a Florida public records state court action.

6

USFBOT’s JMOL was not supported by an unimpeached,
uncontradicted record but rather attorney misconduct. See
Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133, 151
(2000). As such, USFBOT’s JMOL would have been denied.
B. New Evidence that USFBOT as a Party and USFBOT’s
Counsel Willfully Misrepresented and Put on False Evidence that
USFBOT Stopped Issuing Employment Contracts in 2005.
contract that extended Ms. DeBose’s
Pursuant to a
employment to June 30, 2020, Petitioner filed a common law
breach of contract action and 42 U.S.C. 1981 claim in the original
case. USFBOT employee, Dr. Dosal admitted in the proceedings
that he offered Ms. DeBose such an extended contract, similar to
his own and Dr. Wilcox’s. Ms. DeBose argued during all relevant
times that she accepted Dr. Dosal’s contract offer. Petitioner
requested a written copy of her contract from USFBOT because
Ms. DeBose’s nopy of her contract was in the personnel files
USFBOT sent out for destruction. Petitioner also made a request
for copies of Dr. Dosal’s, and Dr. Wilcox’s extended contracts,
which USFBOT refused to provide to Ms. DeBose during all
relevant times. USFBOT’s counsel alleged that Ms. DeBose was
not covered under a written employment contract of any kind at
the time of her termination in 2015 because allegedly, USFBOT
stopped issuing contracts in 2005.
New Evidence: Petitioner obtained new evidence through a
third party of the 2019-20 written contract extensions of Drs.
Dosal and Wilcox. (A-11 pgs. 62a-64a). The written contracts
evince that USFBOT as a party and USFBOT’s counsel willfully
put on false evidence that USFBOT stopped issuing written
contracts in 2005 to obtain a favorable decision, USFBOT’s
counsel argued that Petitioner’s 2019-20 contract extension and
other contract-related claims were a factual “impossibility”. The
deception by USFBOT and its counsel is result- changing because
the District Court dismissed all of Ms. DeBose’s contract claims
and denied sanctions and other miscellaneous relief because of
this misrepresentation by USFBOT and its counsel to procure
favorable judgments. If USFBOT’s counsel either produced the
contracts or failed to put on false evidence, Ms. DeBose’s breach
of contract claims would have been maintained.

7

C. New Evidence that USFBOT continued its retaliation after
DeBose’s termination.
The District Court .reversed the jury, allegedly on the basis
that Petitioner did not prove “but for” causation of unlawful
retaliation through direct evidence or circumstantial evidence
sufficiently close in proximity. Petitioner introduced evidence
that showed continuous, consecutive adverse actions taken
against her, including after her termination—e.g. negative
reference to ruin Ms. DeBose’s business opportunity, etc.3
New Evidence: Petitioner introduced new evidence to show
that USFBOT continued its retaliation against Ms. DeBose and
its discriminatory practices after Ms. DeBose’s termination.
Petitioner received an unsolicited discrimination complaint filed
internally at USFBOT by one of its employees. The new evidence
showed that USFBOT targeted black/African American
employees hired by or that served under Ms. DeBose during her
tenure, (A-ll pgs. 49a-61a). Additionally, it showed that USFBOT
treated blacks/African American of darker complexion more
adversely than those of lighter complexion and made
blacks/African Americans sing or dance in a degrading,
humiliating manner in order to leave work reasonably on-time.
This evidence is result-changing as it indicates that USFBOT
used intimidation and reprisal tactically, against Ms. DeBose’s
potential witnesses. The type of conduct that USFBOT engaged
in is subject to Title VII regulation and 42 U.S.C. § 1983.
3. The Appeal
On July 21, 2020, Petitioner filed notice of appeal, (A-4 pgs.
16a-18a). The Eleventh Circuit affirmed the District Court,
holding, “We agree with the district court that [DeBose] failed to
produce any evidence that the University destroyed evidence or
that she had an employment contract. On the contrary, the record
evidence showed that the University had not used employment
contracts since 2005. We therefore affirm the denial of sanctions.”
The Eleventh Circuit panel opinion conflicts with finding of the
court in DeBose’s case in chief (i.e. consolidated appeals No. 1814637 / 19-10865), (App. A-12 pgs. 105a-124a), and additionally
exacerbates the Circuit conflicts over the showing a party must
3 The District Court’s pretrial order barred Petitioner from mentioning the destruction of her files
and employment contracts, the vandalism of her car, the withholding of public records, etc.

8

make to receive Rule 60(b)(3) relief. The Eleventh Circuit
acknowledged that the destruction of Petitioner’s records
occurred—whether or not the destruction was done by Appellee’s
counsels in bad faith, (App. A-l, pg. 3a). This finding, while
correct, conflicts with the prior decision in 18-14637 wherein the
panel stated, in contradiction to the factual record, that Petitioner
did not produce any evidence that the University destroyed
evidence or that DeBose had an employment contract, (App. A-12
pgs. 105a-124a). The panel was comprised of two of the same
judges that ruled in Appeal No. 18-14637. The Eleventh Circuit
decision does not explain or resolve this conflict with the prior
opinion and omits discussion of the hearing transcripts
altogether. In the appeal under review, the Eleventh Circuit
again affirmed the District Court in contradiction to the factual
record, that Petitioner has not introduced any new evidence of
fraud that is not duplicative or that could have been previously
submitted, (App. A-l pg. 7a).
The panel has either
misapprehended the appellate record that it would be significant
if it was shown that Ms. Palmer would not have participated in
the shredding of Ms. DeBose’s documents and was not the
registrar at the time, (App. A-ll pg. 104a 14-21), or that bad faith
would be implicated if the employees were not notified in advance
of the destruction. (App. A-ll, pgs. 101a 8-16; 16:22-25; 103a 15). The panel also overlooked evidence that the destruction of
DeBose’s employment records and contracts was ordered by
DeBose’s supervisors that she charged with unlawful
discrimination and retaliation, (App. A-l pgs. 44a-46a). The new
evidence could not have been presented earlier in the original case
because (1) the magistrate declined to enforce the court-issued
subpoena for witness, Marquisha Wilson’s testimony, or allow
oral testimony from Petitioner’s other witnesses at hearing; (2)
repeatedly declined Petitioner’s requests to order an evidentiary
hearing instead of conducting a review “by affidavit”; and (3)
Wilson would not testify or provide a statement for fear of losing
her job and did so only after leaving her employment as a
manager with the University.
Consequently, the panel discussion as to whether Petitioner’s
appeal is “frivolous”, (App. A-l pgs. la-lOa) is completely
misaligned and bears very little or no relationship to the factual
record or to the truth at hand. The crux of the issue is whether
the destruction of Petitioner’s employment records and contracts
deprived Ms. DeBose of the opportunity to fully and fairly present
her claims at critical phases of the case; whether the ordered
destruction by the Respondent was willful, retaliatory misconduct

9

meriting 60(b)(3) relief; and whether USFBOT’s counsel
committed misconduct by putting on false evidence. Against this
backdrop is the fact that Petitioner was not accorded any
opportunity to present her new evidence. This fact demonstrates
DeBose did not have an opportunity to fully and fairly litigate her
claim(s). The panel opinion skirts past this fact and the core issue
that Petitioner was never provided a meaningful opportunity to
examine, cross-examine, or impeach Ms. Palmer to show that
USFBOT’s lawyers willfully scripted and put on the fraudulent
representations to steer attention away from the “higher ups”.
The panel opinion ignored these issues. Petitioner indisputably
did not have an opportunity to “fully litigate her case”, satisfying
the Eleventh Circuit standard for a Rule 60(b)(3) action and
raising more than a colorable entitlement to relief under Rule
60(d).
REASONS FOR GRANTING THE PETITION
Rule 60(b) states: On motion and upon such terms as are just, the
court may relieve a party . . . from a final judgment, order, or
proceeding for the following reasons: . . . Petitioner seeks
Certiorari Review from the Supreme Court of the United States.
Certiorari review will provide an opportunity to resolve the above
Eleventh Circuit panel conflicts and circuit conflicts. The case
also illustrates the need for greater clarity in this area of the law
because decisions and reasoning are watered down and do not
apply existing laws or precedent to a meaningful analysis of the
facts. Review will instill public confidence that is dependent on a
full and fair opportunity, beyond consideration of the number or
length of actions required in pursuit of justice, but whether or not a party was afforded meaningful access to the courts, evidence
and witnesses to prove its claims. The public expects and
demands such reviews to yield greater confidence and respect in
the finality of judgments.

1. Whether a Rule 60(d) Independent Action to Attack a Final
Judgment is a continuation or re-litigation of the prior case,
barred by the doctrine of res judicata.
The Eleventh Circuit affirmed the District Court’s conclusion
that Petitioner’s Independent action was a continuation or re­
litigation of the prior case and foreclosed under the doctrine of res

10

judicata.
Neither federal nor Florida law precludes an
Independent Action. In Pruitt v. Brock, 437 So. 2d 768 (Fla. Dist.
Ct. App. 1983), the court expressly held, “Where relief is sought
by independent action... however, "[t]he action is not a
continuation of the action in which the judgment.. . under attack
was entered. A new complaint is filed, service of process is made
and the new action follows the same procedure as other civil
actions." Trawick, Florida Practice and Procedure § 26.8
(1982). [T]he rules should be construed in such a manner as to
"further justice, not to frustrate it." Id; Singletary v. State, 322
So.2d 551, 555 (Fla. 1975). Under federal law, Rule 60(d) was
designed to provide a party "with a convenient and orderly
method for attacking a final judgment, even after the time for
appeal had expired." Hazel-Atlas Glass Co. v. Hartford Empire
Co., 322 U.S. 238, 64 S.Ct. 997, 88 L.Ed. 1250 (1944);
Vandervoort, Sams, Anderson, v. Vanderuoort, 529 F.2d 424 (5th
Cir. 1976). Only by applying the preferred construction to rules
of procedure, is the intended purpose behind the rules' adoption:
that a case be determined on its merits.
The Eleventh Circuit overlooked that Petitioner’s Independent
Action with new evidence should have proceeded independently
without burdening the Petitioner to re file in the original case. The
Independent Action was filed within one year of the final
judgment.4 Therefore, Petitioner’s filing was timely for both a
Rule 60(b)(3) action that must be filed within one year of the
judgment and for a Rule 60(d) Independent Action, which can be
filed beyond one year after the judgment. The Independent
Action could be maintained in a separate court or the same court
as the original action. Under Rule 60(d), two different procedures
are distinguished: (1) A motion in the court that rendered the
judgment or (2) An independent action to set the judgment aside
brought in the same court or a different court. See United States
v. Throckmorton, 98 U.S. 61 (1878). In Sayers v. Burkhardt, 4
Cir., 85 F. 246, 248 (4th Cir. 1898), the Court said: 'An
independent suit, the object of which is to set aside a decree
because of conspiracy and fraud resorted to and practiced in
procuring the same, is not necessarily required to be brought in
the court where said decree was rendered, but may be instituted
in any court of competent jurisdiction.' And see Hadden v. Rumsey
Product, Inc., 96 F. Supp. 988 (W.D.N.Y. 1951); United States u.
Hartford-Empire Co., D.C., 73 F. Supp. 979, 982 (D. Del. 1947);

4 Final Judgment (10/2/2018); Amended Judgment (10/5/2018); and Second Amended Judgment (2/14/2019).

11

Simon v. Southern Railway Co., 236 U.S. 115 (1915); Logan v.
Patrick, 9 U.S. 288 (1809).
Petitioner preserved her original filing with her evidence
attached and her timely filing date for her Independent Action,
by fully incorporating the docket and orders. Additionally, the
filing date and errors committed by the District Court were
preserved under Rule 15’s relation back” principle,
The
incorporated orders were referenced in Petitioner’s Notice of
Appeal (“NOA”) and were included in the transmitted appellate
record and Appendix. Accordingly, the Eleventh Circuit had
jurisdiction, to review the non-final dismissal order and other
appealed orders in the NOA. USFBOT’s counsel did not file an
appearance in the case. However, the record discloses that the
District Court communicated with USFBOT’s counsel outside of
Petitioner’s hearing and forwarded the filings made by Ms.
DeBose. USFBOT’s counsel made no objection to Petitioner’s
incorporation of the case under Rule 4’s filing, summons, and
service of process and Rule T5’s “relation back” principles.
Therefore, the Eleventh Circuit panel erred not to discuss and
consider the totality of the circumstances and reverse the rulings
of the District Court that were solely based on “mere
technicalities”—e.g. whether the evidence was attached to the
motion (as clearly shown by the record that it was) or whether the
Notice of Appeal included the dismissal order without prejudice
(as the NOA certainly includes and refers to the order at length),
(App. A-4 pgs. 16a-18a)5. Notably, Rule 2 gives courts of appeals
the power, for "good cause shown," to forgive technical oversights
or omissions. It was therefore within the Eleventh Circuit’s
jurisdiction to interpret Petitioner’s filings as "the functional
equivalent of what the rule requires," in conveying the
information required by Rule 3(c).See Smith v. Barry, 502 U.S.
244, 248 (1992)
The Eleventh Circuit conducted an improper review. The
District Court in which Petitioner’s Independent Action was
initially filed, understood that dismissal of a complaint, without
prejudice, does not allow a later complaint to be filed outside the
statute of limitations. Bost v. Fed. Express Corp. , 372 F.3d 1233,
1242 (11th Cir. 2004). The statute of limitations is not
automatically tolled in such a situation, absent some additional
reason. Justice v. United States , 6 F.3d 1474, 1479-80 (11th Cir.
1993). The court disregarded that under equitable tolling, a Rule
-5 The orders attached to-and included with the filed NOA are not included in the Appendix to avoid
duplication.

12

60(b)(3) motion in the original action was not time-barred here
because of the “relation back” under Rule 15 to the original filing
date of Petitioner’s 60(d) Independent Action Complaint, and
additionally because the refiling was in compliance with a federal
district court order. See FED. R. CIV. P. 15(c). Additionally, the
Eleventh Circuit disregarded that Petitioner filed motions to
affect a transfer under 28 U.SC. § 1404(c), which provides that a
transfer may be made in pertinent part: (a) in the interest of
justice; (b) upon motion; or (c) order of the court. The district
court in which the Independent Action was initially filed,
required Petitioner to refile the action herself, so that it would be
an untimely 60(b) motion. A simple transfer, even to the
originating case, would have saved Petitioner’s Rule 60 “saving’s
clause” action. Furthermore, the district court was on notice of
Ms. DeBose’s concern for a fair proceeding. Thus, the transfer
could have been made in the interest of justice.6 The failure to
transfer shows that while the district court stated it did not
review the matter on the merits, it nonetheless made certain
factual determinations that were not ministerial in nature that
prejudiced Ms. DeBose in the refiled action and on appeal. The
Eleventh Circuit ruling failed to review or discuss the District
Court’s errors and its failure to conduct a proper review on the
merits, rather than mere technicalities. The District Court
erroneously concluded that Petitioner filed the Independent
Action only after the Eleventh Circuit made its panel ruling,
when in fact Petitioner’s action was filed prior to the decision, (A5 pg. 20a).
If allowed to stand, the Eleventh Circuit decision would
obliterate the important doctrines of relation back, equitable
tolling, and the statutory right to bring an Independent Action to
set aside a judgment. Petitioner found no case on point to show
that attacking a judgment in the same action or a different action
is barred by res judicata. Petitioner was forced out of one court
to refile in another court to support such an argument and fashion
such an outcome.
2. Whether a blameless party must show that she has been
denied a full and fair opportunity to present her case by “clear
and convincing evidence,” as the Third, Fifth, Seventh, Eighth,
and Eleventh Circuits; or show “substantial interference” in the
6 A 28 U.S.C. § 144 affidavit has been sufficient to effect a transfer of the case to another judge on a
firm showing in the affidavit that the judge does have a personal bias or prejudice to a party. In re
Martinez-Catala, 129 F.3d 213, 218 (1st Cir. 1997).

13

presentation of her case, as the Ninth and Tenth Circuits have
held; or does the burden on this issue shift under certain
circumstances to the party opposing a Rule 60(b)(3)/60(d)(3)
motion; or must the movant show “only that species of fraud
which does or attempts to, defile the court itself, or is a fraud
perpetrated by officers of the court so that the judicial
machinery cannot perform in the usual manner its impartial
task of adjudging cases that are presented for adjudication.”
Travelers Indent. Co. v. Gore, 761 F.2d 1549,1551 (11th Cir. 1985).
Rule 60(b)(3) of the Federal Rules of Civil Procedure gives
district courts the authority to relieve a party from an adverse
judgment, even after it is final, based on a showing of “fraud . . .,
misrepresentation, or misconduct by the opposing party.”
Although this rule has been in effect since 1948, the federal
circuits have adopted conflicting approaches - reflecting “major
area[s] of controversy in Rule 60(b)(3) jurisprudence.” The
circuits' standards for relief under Rule 60(b)(3) reflect such a
focus by entailing an inquiry into the probable effect of
misconduct on presenting one's “case” or proceeding at trial. See,
e.g., State St. Bank & Trust Co. v. Inversiones Errazuriz
Limitada, 374 F.3d 158, 176 (2d Cir.2004) (“To prevail on a
Rule 60(b)(3) motion, a movant ‘must show that the conduct
complained of prevented the moving party from fully and fairly
presenting his case.’ ” (citation omitted)); Venson v. Altamirano,
749 F.3d 641, 651 (7th Cir.2014) (“The party seeking relief
pursuant to Rule 60(b)(3) must show that he had a meritorious
claim that he could not fully and fairly present at trial due to his
opponent's fraud, misrepresentation, or misconduct.”); Zurich N.
Am. v. Matrix Serv., Inc., 426 F.3d 1281, 1290 (10th Cir.2005)
(“[T]he challenged behavior must substantially have interfered
with the aggrieved party's ability fully and fairly to prepare for
and proceed at trial.” (citation omitted)); Cox Nuclear Pharmacy,
Inc. v. CTI, Inc., 478 F.3d 1303, 1314 (11th Cir.2007) (“[T]he
moving party must show that the conduct prevented the losing
party from fully and fairly presenting his case or defense.”
(brackets and citation omitted)); In re Hope 7 Monroe St. Ltd.
P'ship, 743 F.3d 867, 875 (D.C.Cir.2014) (“[T]he movant must
show the misconduct was prejudicial, foreclosing the ‘full and fair
preparation or presentation of its case.’ ” (citation omitted)).
Nowhere in the Federal Rules of Civil Procedure is Rule 60(b)(3)
limited in applicability to judgments on a case’s merits. Thus, it
may apply to situations in which a party alleges that the
misconduct prevented her from fully and fairly presenting its

14

“claims” of entitlement (e.g. at summary judgment) to proceed to
trial or have the claims decided by a jury. Cf. Black's Law
Dictionary 301 (10th ed. 2014) (defining a “claim” as “[t]he
assertion of an existing right”). These conflicts involve: (1) the
quantum of evidence necessary for proving that the alleged fraud
or misconduct denied a party a full and fair opportunity to
litigate;7 (2) what constitutes “misconduct”—(e.g. whether
“misrepresentations ... of an opposing party” under Fed. R. Civ.
P. 60(b)(3) include misrepresentations by a witness, known to the
party and its counsel to be a false/fraudulent admission, can be
attributed to the complicity of the party and/or its counsel; (3)
whether “misconduct” includes self-serving omissions or willful
nondisclosure to the tribunal; and (4) Whether “misconduct”
under Fed. R. Civ. P. 60(b)(3) could include the destruction,
concealment, or omission of evidence in the course of discovery,
even if it is purely accidental and unintentional, as the First,
Fifth, and Eleventh circuits have held, or requires a showing of
improper or wrongful behavior, as the Sixth Circuit has held.
A. The Third, Fifth, Seventh, Eighth and Eleventh Circuits
require a movant to show by “clear and convincing evidence” that
it was denied a full and fair opportunity to litigate its case.
The “clear and convincing” evidence standard is a “high” bar,
see e.g., Commit USA, LLC v. Cisco Systems Inc., 135 S. Ct. 1920,
1929 (2015). That standard derives from the Supreme Court’s
holding, prior to the enactment of Rule 60(b)(3), that “to justify
setting aside a decree for fraud whether extrinsic or intrinsic, it
must appear that the fraud charged really prevented the party
complaining from making a full and fair defense.” Toledo Scale
Co. v. Computing Scale Co., 261 U.S. 399, 421 (1923). In Lonsdorf
v. Seefeldt, 47 F.3d 893 (7th Cir. 1995), the Seventh Circuit
applied the clear and convincing standard to grant relief under
Rule 60(b)(3). The plaintiff had moved to set the judgment aside
in light of the discovery of defendant’s fraudulent alteration of a
training schedule, which the defendant had successfully used at
trial to show his actions were not sexual harassment but in fact
part of a pre-approved training program. Applying this standard,
7 The Third, Fifth, Seventh, Eighth, and Eleventh Circuits have held “clear and convincing evidence” is required
whereas the Ninth and Tenth Circuits have held the movant must show “substantial interference” in the presentation
of her case. The First and Sixth Circuits have held the burden-shifts to the opposing party of a Rule 60(b)(3) motion
or Rule 60(d) independent action under certain circumstances.

■■'IS

the court found “ample prejudice in the use of the fraudulent
evidence” at trial “to demonstrate that [the plaintiff] mistakenly
viewed training exercises as sexual harassment.” Id. at 896-97.
The panel decision also conflicts with Eleventh Circuit and
other circuit decisions holding that false testimony'by a witness
or a party is more serious under Rule 60(b)(3). Courts have long
recognized that misconduct by a party is more serious, and
deserving of greater sanction, than misconduct by a witness. In
its leading decision on fraud on the court, Hazel-Atlas Glass Co.
v. Hartford-Empire Co., 322 U.S. 238, 245 (1944), this Court drew
that distinction sharply:.“This is hot simply a case of a judgment
obtained with the aid of a witness who, on the basis of afterdiscovered evidence, is believed possibly to have been guilty of
perjury. Here ... we find a deliberately planned and carefully
executed scheme [by a party] to defraud ... the Circuit Court of
Appeals.” Rule 60(b)(3) permits relief from a final judgment only
upon the proof of “fraud . . ., misrepresentation, or misconduct by
an opposing party." (emphasis added). The panel opinion did not
consider the more serious acts of party misconduct/fraud. The
court of appeals has held that false testimony by a [corporate]
witness may, without more, be imputed to the party that called
the witness. The court offered no explanation why Ms. Palmer’s
party admission about the destruction and Dr. Wilcox’s false
testimony about stopping contracts in 2005 was not. considered a.
“misrepresentation by an opposing party.” Under Fed. R. Civ. P.
60(b)(3), to merit relief, the false testimony must be “traced to the
adverse party.” Here, it was.
The panel did not apply the Eleventh Circuit’s Rule 60(b)(3)
standard. If applying the same reasoning by the Eleventh Circuit
and the other four circuits above—particularly the Seventh
Circuit in Lonsdorf v. Seejeldt, the panel could have found ample
evidence of fraud. USFBOT and its counsel prevented Petitioner
from trying her contract Claims in bad faith by having Ms.
DeBose’s personnel files containing her copies of her contracts
and other evidence destroyed. USFBOT and its counsel concealed
the destruction, denied that it occurred, and only admitted to the
destruction when. Petitioner presented, irrefutable proof.
Unexpectedly caught, USFBOT scripted an affidavit for Ms.
Palmer in which she falsely admitted that she gave the order but
not because it was true; instead, it was to deflect attention away
from the actual parties giving the order, Dr. Dosal and Dr. Wilcox,
accused of race discrimination and retaliation. The evidence and
surrounding factors are compelling and demonstrate that the
destruction of Petitioner’s files was not done through

17

disclosure. Id. at 993-94. See also Zurich N. Am. v. Matrix Serv.
Inc., 426 F.3d 1281, 1290 (10th Cir. 2005) (“[T]he challenged
behavior must substantially have interfered with the aggrieved
party’s ability fully and fairly to prepare for and proceed at trial.”
(quotation marks omitted)).
Petitioner’s 60(b)(3) action is unlike Woodworker’s Supply, Inc.
because she availed herself by various motions to cure the
prejudice arising from USFBOT counsel’s misrepresentation that
USFBOT stopped using written employment contracts after 2005.
In Aero/Chem Corp., 921 F.2d 875, 878 (9th Cir. 1990), the Ninth
Circuit explained the Rule 60(b)(3) relief is required when a
movant shows that fraud, misrepresentation or misconduct “may
have substantially interfered with [her] ability to fully and fairly
present her case.” Id. at 879. The Eleventh Circuit has used
variants of the “substantial interference” test under Rule 60(b)(3),
requiring a movant to demonstrate actual prejudice such that the
misconduct affected the substantial rights of the movant. The
misconduct was prejudicial to Petitioner, foreclosing the full and
fair preparation or presentation of her employment contract
claims. See DC. Circuit cases Summer v. Howard Univ., 374 F.3d
1188,1193 (D.C. Cir. 2004); Hope 7Monroe St. L.P. v. Riaso, LLC,
743 F.3d 867, 875 (D.C. Cir. 2014).
C. The First and Sixth Circuits employ a burden-shifting
framework.
The First and Sixth Circuits do not place the Rule 60(b)(3)
burden solely on the movant. Rather, these courts employ a
If the movant establishes that the
burden-shifting test,
misconduct was intentional, these circuits shift the burden to the
opposing party to prove by clear and convincing evidence that the
misconduct did not result in prejudice to the movant’s ability to
fully and fairly litigate its case. In Anderson v. Cryovac, Inc., 862
F.2d 910, 923 (1st Cir. 1998), the court determined: “Verdicts
ought not lightly to be disturbed, so it makes very good sense to
require complainants to demonstrate convincingly that they have
been victimized by an adversary’s misconduct. . . . [T]he error, to
warrant relief, must have been harmful - it must have ‘affect[ed]
the substantial rights’ of the movant.” Id. at 924 (citing Rule 61).
If a movant shows an opponent’s misconduct by clear and
convincing evidence and also shows that the misconduct was
“knowing and deliberate,” id. at 930 n.15, the First Circuit applies
a rebuttable presumption that the misconduct substantially

18

interfered with the movant’s ability to litigate. The burden then
shifts to the opposing party, which can overcome the presumption
“by a clear and convincing demonstration that the consequences
of the misconduct were nugacious.” Id. at 926. The Sixth Circuit
holds that once the moving party has shown by clear and
convincing evidence that misbehavior by an opposing party had
occurred, prejudice to the moving party would be assumed unless
the non-moving party shows by clear and convincing evidence
that the misbehavior had no prejudicial effect on the litigation.
Neither the Eleventh Circuit nor the District Court conducted
a review under a burden-shifting framework. USFBOT’s counsel
was not asked by the District Court to explain its fraud,
misrepresentations, or misconduct or actions that were taken
that prevented Petitioner from trying her case or the issues.

D. The Circuits Are Also In Conflict Over Whether “Misconduct”
Under Rule 60(b)(3) Can Include An Inadvertent, Negligent, or
Intentional Omissions.
The Sixth Circuit rejected the interpretations of Rule 60(b)(3)
by the First, Fifth, and Eleventh Circuits . . . [as] not squaring]
with the plain meaning of the rule” concerning whether an
inadvertent error by a party can constitute “misconduct” under
the Rule. Considering both the plain meaning of the word
“misconduct” and its placement in a rule addressed to fraud and
misrepresentation, the court concluded “the primary connotation
of each of the words in Rule 60(b)(3) suggests a requirement of
some odious behavior on the part of the non-moving party. To
interpret one of these words as permitting the moving party
merely to demonstrate that the non-moving party made a nonreckless mistake is to ignore the text and context of the rule.
Thus, the court held in Info-Hold, Inc. v. Sound Merchandising,
Inc., 538 F.3d 448, 455 (6th Cir. 2008)(citing Jordan v. Paccar,
Inc., No. 95-3478, 1996 U.S. App. LEXIS 25358,1996 WL 528950,
at *6 (6th Cir. Sept. 17, 1996)), “the moving party under the rule
must show that the adverse party committed a deliberate act that
adversely impacted the fairness of the relevant legal proceeding.”
Id.
The panel expressed that Petitioner did not prove a deliberate
act, deploying the interpretation of the Sixth Circuit. The panel
opinion does not acknowledge that even an accidental,
inadvertent or negligent omission or misrepresentation by
USFBOT or its counsel would have qualified as misconduct under

19

Rule 60(b)(3). See United States v. One (1) Douglas A-26B
Aircraft, 662 F.2d 1372, 1375 n. 6 (11th Cir.1981), holding that
fraud, misconduct, or misrepresentation under Rule 60(b)(3) may
encompass conduct that is not purposeful. Furthermore, Rule
60(b)(3) “does not require that the information withheld be of such
nature as to alter the result in the case.” Rozier v. Ford Motor Co.,
573 F.2d 1332, 1339 (5th Cir.1978) (citing Seaboldt v.
Pennsylvania RR. Co., 290 F.2d 296, 299—300 (3d Cir.1961)).
E. The panel overlooked that Rule 60(d)(3) actions have set aside
judgments for fraud upon the court to prevent a grave miscarriage
of justice; the fabrication of evidence by a party where an attorney
is implicated; or perjury where an attorney is involved.
Rule 60(b) states that “[t]his rule does not limit the power of a
court to entertain an independent action to relieve a party from a
judgment, order, or proceeding ... or to set aside a judgment for
fraud upon the court.”8 Notably, “an independent action should
be available only to prevent a grave miscarriage of justice.” See
United States v. Beggerly, 524 U.S. 38, 47, 118 S. Ct. 1862, 1868,
141 L.Ed.2d 32 (1998). In Zurich North America v. Matrix Serv.,
Inc., 426 F.3d 1281 (10th Cir. 2005), the fabrication of evidence
by a party in which an attorney is implicated will constitute a
fraud on the court. Id. Fabrication includes false, falsified, forged,
or tainted evidence. Additionally, perjury in which an attorney
participates may be considered fraud on the court sufficient to
relieve a party from a prior judgment, cf. Hazel Atlas Co. v.
Hartford Empire Co., 322 U.S. 238, 64 S. Ct. 997, 88 L.Ed. 1250
(1944).
CONCLUSION
There is substantial evidence within the record and new
evidence submitted to make a strong showing of bad faith and
grounds for other relief requested, particularly an evidentiary
hearing. The district court’s order denying Petitioner’s motion for
relief from judgment and independent action should be vacated.

8 This clause is commonly referred to as the “savings clause.” See, e.g., In Re Lawrence, 3 293 F.3d
615, 622 n.5 (2d Cir. 2002).

20

Respectfully, this Court should grant this petition for a writ of
certiorari.
Submitted April 20, 2021

Is/ Angela DeBose
Angela DeBose, Petitioner

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 20th day of April, 2021, the above and
foregoing was sent via mail for filing with the Clerk, which will email Richard
McCrea, 101 E. Kennedy Blvd, Suite 1900, Tampa, FL 33602 at (mccrear@gtlaw.com)
and was sent via the U.S. mails.
Respectfj&lly submitted,

'<nt

/s/ Angela DeBose
Angela DeBose, Petitioner
1107 W. Kirby St.
Tampa, Florida 33604
(813) 932-6959
awdebose@aol.com

